  U.S. Department of Agriculture
   Office of Inspector General
        Southeast Region
           Audit Report



FOOD SAFETY AND INSPECTION SERVICE
        OVERTIME CONTROLS




                 Audit Report No.
                 24099-4-At
                 SEPTEMBER 2002
                UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL

                                   Washington D.C. 20250


DATE:        September 30, 2002

REPLY TO
ATTN OF:     24099-4-At

SUBJECT:     Overtime Controls

TO:          Dr. Garry L. McKee
             Administrator
             Food Safety and Inspection Service

ATTN:        Ronald H. Hicks
             Acting Associate Administrator

This report presents the results of the subject audit. Your September 30, 2002,
response to the draft report is included as exhibit G with excerpts and the Office of
Inspector's (OIG) position incorporated into the relevant sections of the report.

We agree with your management decisions for Recommendations No. 3, 4, 5, 6, 7, and
8.    Management decisions have not been reached for Recommendations No.
1, 2, 9, and 10. We request additional action as outlined in the OIG Position.

In accordance with Department Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned and the timeframe for
implementing the corrective actions on the recommendations for which a management
decision has not yet been reached. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a
maximum of 6 months from report issuance, and final action to be taken within 1 year of
each management decision. Correspondence concerning final actions should be
addressed to the Office of the Chief Financial Officer.


/s/

RICHARD D. LONG
Assistant Inspector General
  for Audit
                        EXECUTIVE SUMMARY
               FOOD SAFETY AND INSPECTION SERVICE
                      OVERTIME CONTROLS
                   AUDIT REPORT NO. 24099-4-At


                                     This report presents the results of our audit of
      RESULTS IN BRIEF               overtime controls at the Food Safety and
                                     Inspection Service (FSIS). The purpose of the
                                     audit was to determine if FSIS had adequate
          controls over overtime worked by food inspectors. In addition, we
          evaluated the actions taken by FSIS to bill and collect amounts owed for
          reimbursable overtime including delinquent amounts.

            Our analysis of FSIS payroll records showed that for fiscal
            year (FY) 2000, employees worked over 2.6 million hours of overtime.
            The average employee claimed about 290 hours of overtime, but we found
            36 employees that reported over 1,500 hours of overtime, and one
            employee that reported a total of 1,976 hours of overtime. (See exhibit D.)

            Despite the large amount of overtime hours worked by inspectors, we
            concluded that FSIS did not have adequate controls over overtime
            charges, especially in both food processing plants and small slaughter
            plants where only one inspector was assigned per shift and no on-site
            supervision existed. FSIS National office had not updated policies on
            overtime claims, and gave each district the autonomy to establish their
            own policies and controls. We reviewed a sample of 1,325 time and
            attendance (T&A) reports for 44 selected employees and found that
            1,158 (87 percent) were not signed by the supervisors and had no
            evidence of any supervisory review. Inspectors submitted many of their
            T&A reports directly to their Financial Processing Center (FPC) for
            payment without evidence of supervisory review. We also found that prior
            written supervisory approval of overtime was not required. As a result,
            controls were not sufficient to ensure that overtime charges were
            accurate.

            Hours of premium pay claimed by inspectors were not always supported
            by information documented on their T&A reports. Hours worked were not
            always shown on the T&A reports to verify that overtime was performed
            outside the employee’s normal tour of duty and night differential pay was
            accurate. The circuit supervisors (CS) were not making adequate reviews



USDA/OIG-A/24099-4-At                                                           Page i
           of the T&A reports to ensure that reports were properly completed. In
           addition, FPC did not provide a quality control review to ensure that T&A
           reports were properly documented. As a result, inspectors could not fully
           justify or support some claims for premium pay and could have been
           overpaid.

           We found that FSIS has continued to provide overtime and holiday
           inspection services to plants that had not paid delinquent bills. Bills for
           overtime and holiday services were payable on receipt and became
           delinquent 30 days from the date of the bills. Regulations provided that
           overtime and holiday inspection services would not be provided for any
           plant having a delinquent account. However, we found 40 plants with
           delinquent accounts totaling about $1 million in the 3 districts visited that
           were receiving overtime and/or holiday inspection services. Five of these
           plants had not made a payment since 1999 or before. District office
           officials said withholding overtime inspection was not likely to happen
           because of the hardship it might cause plants that depend on overtime or
           holiday inspection. We found that inspectors at the plant were generally
           unaware of the payment status of plants because FPC was not informing
           FSIS personnel in district or plant offices of delinquencies.

           We concluded that FSIS did not take aggressive or effective collection
           actions on plants with delinquent accounts including those that were
           suspended or had been withdrawn from inspection service. The agency
           had not revised policies and procedures after its 1996 field office
           reorganization and had not made adequate system changes after
           implementation of the Foundation Financial Information System (FFIS) in
           October 1999. Key collection provisions required by the Debt Collection
           Act of 1996 had not been implemented. The accounts receivable aging
           reports were not redesigned to conform to district boundaries, and thus,
           could not be used by the districts to monitor the payment status of plants
           under their jurisdiction. Also, dunning letters could not be generated and
           sent for delinquent accounts since the inception of FFIS in October 1999
           until March 2001 because of computer system problems. Further, none of
           the District offices visited had personnel assigned to monitor the payment
           status of the plants in the districts. As a result, FSIS did not have an
           adequate collection system to aggressively pursue delinquent debts
           totaling about $7 million.

           FPC officials said that in April 2001, they began calling plants with the
           largest delinquent amounts to request payment and these efforts had
           resulted in collection of about $3 million. FSIS officials also stated they
           were currently revising their debt collection procedure to include
           suspension of overtime services in appropriate cases and referral of debts


USDA/OIG-A/24099-4-At                                                           Page ii
            for Treasury offset.

            In addition, controls over billing for reimbursable overtime were not
            adequate, because FSIS did not verify the hours of reimbursable overtime
            shown on the inspector-prepared Form 5110-1, "Services Rendered" to
            the inspectors' T&A reports. Forms 5110-1 were not reviewed by the CS
            and were sent directly to FPC for processing.             Although, plant
            management was supposed to sign each Form 5110-1 to acknowledge
            that overtime work was performed, we found that plant management was
            not always (1) present to verify the hours worked and (2) required to sign
            the forms. As a result, there was limited assurance that plants were billed
            for the correct amount of overtime and in some cases, may have paid for
            services they did not receive.

                                      We recommend that FSIS establish and
  KEY RECOMMENDATIONS                 implement controls to require prior approval of
                                      overtime and supervisory reviews of T&A
                                      reports. In addition, FSIS needs to require
         inspectors to properly document their T&A reports to justify claimed
         premium pay and ensure that CS adequately reviews T&A's. FSIS should
         implement regulations requiring the suspension of overtime services to
         plants that are delinquent in paying their bills for services, and should also
         develop and implement collection strategies consistent with the Debt
         Collection Improvement Act of 1996 that will improve collection efforts
         from delinquent plants. In addition, we recommend that FPC complete
         development of an automated control to compare hours on the bills for
         overtime issued to plants with the inspectors' T&A reports to ensure that
         all reimbursable overtime was properly reported and billed.

                                      In its September 30, 2002, written response to
     AGENCY RESPONSE                  the draft report, FSIS generally agreed with
                                      the findings and recommendations, except for
                                      part of recommendation number 1 and 10. Its
         specific comments and OIG's position are presented in the relevant
         sections of the report for each finding. FSIS' entire response is shown in
         exhibit G of the report.




USDA/OIG-A/24099-4-At                                                          Page iii
                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS .....................................................................................iii
   AGENCY RESPONSE ..............................................................................................iii
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................3
   SCOPE .......................................................................................................................3
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................5
   CHAPTER 1 ...............................................................................................................5
   PROCEDURES AND CONTROLS OVER OVERTIME NEED IMPROVEMENT .......5
   FINDING NO. 1 ..........................................................................................................5
   RECOMMENDATION NO. 1 ......................................................................................8
   RECOMMENDATION NO. 2 ....................................................................................10
   FINDING NO. 2 ........................................................................................................10
   RECOMMENDATION NO. 3 ....................................................................................12
   RECOMMENDATION NO. 4 ....................................................................................12
   CHAPTER 2 .............................................................................................................13
   CONTROLS AND PROCEDURES OVER BILLING AND COLLECTING FOR
   REIMBURSABLE OVERTIME NEED IMPROVEMENT...........................................13
   FINDING NO. 3 ........................................................................................................14
   RECOMMENDATION NO. 5 ....................................................................................15
   FINDING NO. 4 ........................................................................................................15
   RECOMMENDATION NO. 6 ....................................................................................17
   FINDING NO. 5 ........................................................................................................17
   RECOMMENDATION NO. 7 ....................................................................................21
   RECOMMENDATION NO. 8 ....................................................................................21


USDA/OIG-A/24099-4-At                                                                                                  Page iv
 RECOMMENDATION NO. 9 ....................................................................................22
 RECOMMENDATION NO. 10 ..................................................................................23
 EXHIBIT A – OVERTIME HOURS BY DISTRICT – FY 2000...................................24
 EXHIBIT B – PLANTS WITH DELINQUENT ACCOUNTS RECEIVING OVERTIME
 INSPECTION SERVICES IN THE DISTRICTS VISITED .........................................25
 EXHIBIT C – WITHDRAWN OR SUSPENDED PLANTS WITH UNPAID ACCOUNTS
 FOR OVERTIME SERVICES ...................................................................................27
 EXHIBIT D – FSIS OVERTIME HOURS - FY 2000..................................................28
 EXHIBIT E – OVERTIME BILLED BY DISTRICT – 10/99 THROUGH 03/01 ..........29
 EXHIBIT F – PLANT LOCATIONS VISITED............................................................30
 EXHIBIT G – FSIS RESPONSE TO THE DRAFT REPORT ....................................31




USDA/OIG-A/24099-4-At                                                                               Page v
                             INTRODUCTION

                                     The Food Safety and Inspection Service
        BACKGROUND                   (FSIS) inspectors are entitled to overtime pay
                                     when they perform official duties at times
                                     outside their established tours of duty. There
          are two categories of overtime: reimbursable and non-reimbursable.
          Reimbursable overtime occurs when inspectors are in overtime status and
          are performing required inspections at times that fall outside the period(s)
          when the plants are provided free inspection services. Non-reimbursable
          overtime occurs when inspectors are working in overtime status, but are
          performing duties other than required inspection activities or when
          required inspections are carried out during times when the plant was
          entitled to free services. The requirements for overtime inspection
          services are found in Title 9 Code of Federal Regulations (CFR)
          307.4-6 and 381.37-39.

           Each plant is provided inspection service up to 8 consecutive hours per
           shift during the basic 5-day workweek without charge. Any additional time
           included in the plant’s normal operating schedule would be billed to the
           plant as reimbursable overtime. Each plant submits a work schedule to
           the district office for approval. The work schedule specifies daily clock
           hours of operation and lunch periods for all departments of the plant
           requiring inspection. Changes in the work schedules also must be
           submitted to the district office for approval. It is common for the approved
           work schedule to include hours of operation that extend beyond the
           inspectors' normal 8-hour, tour of duty. Consequently, many inspectors
           accrue overtime as part of their regular workday.

           Plants may also request inspection services outside the approved work
           schedule. Such requests should be made as early as possible to allow
           FSIS the ability to provide staff to cover the requests. If the requests
           cause inspectors to work beyond their scheduled tour(s) of duty, the plants
           will be billed for the services rendered.

           FSIS was reimbursed for overtime services based on the number of hours
           worked by inspection personnel in overtime status. Each recipient (plant)
           of overtime inspection services is billed in quarter hour increments at a
           specified rate established annually ($41 per hour in fiscal year (FY) 2001).
           Bills for overtime services were payable on receipt by the plants and
           became delinquent 30 days from the date of the bills. Interest and
           penalties are applied to bills paid after 30 days. Regulations provide that
           overtime and holiday inspection services will not be provided for any plant
           having a delinquent account (unpaid after 30 days).

USDA/OIG-A/24099-4-At                                                          Page 1
           Inspectors are permitted to work up to 12 hours per day in food processing
           plants (10 hours per day in slaughter plants) with any time over 8 hours
           considered overtime. Inspectors assigned to slaughter plants often work
           only at their assigned plant as continuous inspection services are required
           during times when a slaughter plant is operating. Inspectors at food
           processing plants usually have several plants assigned and they
           periodically visit each plant that is operating during the workday. FSIS'
           proportional billing policy for processing plants provides that all plants that
           remain open and operating during an inspector’s overtime period be billed
           proportionally for the overtime regardless of the location(s) where the
           inspector worked. For example, if 3 plants remain open during the
           overtime       period     and      the     inspector     normally      spends
           50 percent of his time at one plant and 25 percent of his time at each of
           the other 2 plants, the overtime will be billed to the 3 plants in the same
           proportion regardless of where the inspector worked.

           The inspectors report their overtime on Time and Attendance Reports
           (T&A). Time codes and management codes are used to identify the type
           of overtime worked and whether it is reimbursable. Reimbursable
           overtime is also shown on FSIS Form 5110-1, "Services Rendered." The
           5110-1 forms are prepared by the inspectors on-site in the plants and
           show the amount of reimbursable overtime hours worked.
           The inspectors provide the plant’s management with copies of each
           5110-1 form. The plant’s management may sign the forms as an
           acknowledgement that the services are provided.

           At the end of every 2-week pay period, the inspectors send the original
           copies of their T&A reports and 5110-1 forms directly to the Financial
           Processing Center (FPC) for processing. FPC transmits the T&A data to
           the National Finance Center (NFC) for payment through the payroll
           system.     The hours of reimbursable overtime reported on the
           5110-1 forms are entered into the computer system at FPC and converted
           to the amount of dollars owed by each plant. The billing data is entered in
           the accounting system so that accounts receivable are created and
           invoices are prepared and sent to the applicable plants. The invoices are
           prepared monthly and sent to the plants for payment. The invoices often
           include several 5110-1 forms and one invoice could include 5110-1 forms
           issued by more than one inspector. The plants can compare the
           5110-1 forms listed on the invoices to the copies provided by the
           inspectors but the documents must be matched by the document numbers
           because the invoices show the dollar amounts charged, while the 5110-1
           forms only show the hours worked by the inspectors.




USDA/OIG-A/24099-4-At                                                             Page 2
                                        The audit objectives were to analyze FSIS
         OBJECTIVES                     procedures and controls for monitoring,
                                        reporting, reconciling, and billing for overtime.
                                        In addition, we analyzed FSIS procedures for
          (1) collecting amounts billed for reimbursable overtime, (2) servicing past
          due accounts, informing inspection personnel of plants that did not pay
          their bills for overtime, and (3) actions taken when plants did not pay their
          bills.

                                      Audit work was performed at FSIS
             SCOPE                    Headquarters in Washington, D.C., and
                                      Beltsville, Maryland, and at the district offices
                                      in Albany, New York; Atlanta, Georgia; and
           Chicago, Illinois. In addition, we visited FPC in Urbandale, Iowa.
           We also visited 23 plants in the inspection program and
           2 plants that had ceased operations (see exhibit F for a list of plant
           locations visited). We judgmentally selected the plants based on having
           delinquent accounts, or inspectors with large amounts of overtime
           claimed. There were about 1,700 plants in the 3 districts visited.

           Operations were analyzed in depth at 3 of the 17 district offices. The
           three offices analyzed were selected for review based on the prevalence
           of a large number of food processing plants in the inspection program. In
           addition, we visited FPC and reviewed their procedures for recording and
           billing for overtime. We interviewed FSIS managers at the 3 district
           offices, FPC, 8 circuit supervisor (CS) or acting CS, 29 plant officials,
           and 23 inspectors concerning overtime and billing procedures.
           Overtime claims for 44 judgmentally selected FSIS personnel in the
           3 districts reviewed were analyzed for the period January 2000 through
           March 10, 2001. Forty-three of the employees in the sample were
           inspectors and one individual worked at the district office. There were a
           total of 1,446 FSIS employees in the 3 districts reviewed. We also
           reviewed billing data at FPC and performed analyses on bills printed from
           October 1999 through March 2001.          The audit was conducted in
           accordance with generally accepted government auditing standards.

                                        In order to accomplish our audit objectives we:
       METHODOLOGY

                 Reviewed applicable laws, regulations, policies, and procedures
                 pertaining to approving, reporting, reconciling, and billing for
                 overtime.

                 Interviewed FSIS managers, inspection personnel, food industry
                 officials and FPC personnel.

USDA/OIG-A/24099-4-At                                                            Page 3
                Obtained and analyzed automated data records and supporting
                documentation for overtime reported and billing data for
                reimbursable overtime.

                Reconciled and/or compared the automated data to the paper
                records.

                Identified and analyzed the applicable controls over overtime used
                by FSIS.




USDA/OIG-A/24099-4-At                                                      Page 4
            FINDINGS AND RECOMMENDATIONS


                   PROCEDURES AND CONTROLS OVER OVERTIME
CHAPTER 1
                   NEED IMPROVEMENT

            FSIS did not have adequate controls in place over overtime charged by
            field inspectors. FSIS National office had not updated policies on overtime
            claims, and gave each district the autonomy to establish their own policies
            and controls. In addition, supervisory approvals of T&A reports were not
            performed or documented and prior written approval of overtime worked
            was not required. As a result, there was a lack of assurance that the
            inspectors' overtime claims were accurate and that the overtime reported
            was actually worked.

            Our analysis of payroll records showed that for FY 2000, FSIS employees
            worked over 2.6 million hours of overtime. The average employee claimed
            about 290 hours of overtime but we found 36 employees that reported over
            1,500 hours of overtime and one employee reported 1,976 hours of
            overtime (see exhibit D). Exhibit A shows the total overtime charged by
            employees in each district office for FY 2000.

            Hours of premium pay (overtime, night differential, etc.) claimed by
            inspectors were not always supported by information documented on their
            T&A reports. Clock hours were not shown on the T&A reports to verify
            that overtime was performed outside the employee’s normal tour of duty
            and night differential pay was accurate. We attributed this condition to
            inadequate review of the T&A reports by the CS. Further, FPC did not
            provide a quality control review to ensure that T&A reports were properly
            documented. As a result, some inspectors did not fully justify or support
            their claims for premium pay and could have been overpaid.

                                        Controls over the T&A certification process
        FINDING NO. 1                   were inadequate. We found that (1) the FSIS
                                        written policy over this process was nearly
     CONTROLS OVER T&A                  17 years old and obsolete, and each district
 CERTIFICATION PROCESS NEED             was allowed to develop their own policies on
         IMPROVEMENT                    processing and reviewing T&A reports;
                                        (2) supervisory approvals or reviews of T&A
                                        reports were not performed or documented;
           (3) inspectors did not obtain prior approval from management before
           working overtime; and (4) plants’ requests for overtime services were not
           written and directed to FSIS management. An FSIS National office official
           admitted that the written directive was obsolete and needed revision. As a
USDA/OIG-A/24099-4-At                                                          Page 5
           result, FSIS supervisors could not reasonably detect inaccurate claims by
           inspectors as T&A reports processed for payment could contain more
           overtime hours than what was worked.

           We reviewed all 1,325 T&A reports on file at FPC for 44 judgmentally
           selected employees out of 1,446 FSIS employees in the 3 districts in our
           sample for the period January 2000, through March 10, 2001. We found
           supervisor approval signatures on 167 (13 percent) of the T&A reports and
           the remaining 1,158 (87 percent) did not show any evidence of
           supervisory review.

           FSIS Directive 3530.4, issued in July 1985, was the current National office
           instruction for preparing the T&A reports. The directive applied to
           preparation of T&A reports that were submitted on a machine-scanned
           form directly to NFC. The instruction provided some information that was
           still valid, but much of it was obsolete because a different T&A form is
           currently used and the T&A reports are now sent to FPC for processing
           instead of directly to NFC.

           The current procedures used to process and certify T&A reports were
           developed on an adhoc basis following the reorganization of the FSIS field
           structure and creation of the district offices and FPC. Inspectors
           submitted their T&A reports directly to FPC for payment with no assurance
           that the CS had reviewed the information processed for payment. FPC
           personnel said that their policy on processing T&A reports without
           supervisory signatures varied depending on the procedures each district
           office requested FPC follow. An FPC official said they sent a letter to
           each district office inquiring about procedures the districts followed in
           processing T&A reports where there was no on-site supervisor to sign as
           certifying official and how the district would like FPC to handle T&A
           reports without such signatures. The official said T&A reports from
           districts that provided a policy statement were processed according to the
           district’s policy and preference. Not all of the districts responded to the
           letter and in these cases, the FPC official said they processed T&A
           reports from these districts regardless of whether authorizing signatures
           were on the forms.

           Under current procedures in the districts visited, the inspectors sent the
           original copies of their T&A reports directly to FPC for processing, and
           carbon copies of their T&A reports were sent to their CS for review.




USDA/OIG-A/24099-4-At                                                         Page 6
           Five of the eight CS said that they signed copies of the T&A reports and
           sent the copies to FPC where they assumed the copies would be matched
           to the originals. One CS reported that she held the carbon copies of the
           T&A reports for about 6 months and then destroyed them. The CS said
           they could only review the hours shown to see if they were consistent with
           the assigned plant’s approved operating schedules unless the inspectors
           kept them informed of all plant requests for extra overtime services.

           In plants where only one inspector was assigned per shift, the CS was not
           present at the work locations, except on an intermittent basis. There were
           no reliable external records (time clock, log, etc.) that could be used to
           verify the daily work hours of the inspectors. Also, on many of the food
           processing plant assignments, inspectors were required to visit several
           processing plants each day and it was difficult for the CS to know the
           location of the inspectors at any given time in the workday.

           There were several other factors that limit the ability of the CS to monitor
           and control overtime worked by inspectors:

                Inspectors did not always obtain prior approval from management in
                order to work overtime. Routine overtime at the plants was based on
                the normal plant operating hours and the inspectors’ established
                tours of duty. The CS did not control the day-to-day overtime worked
                within these timeframes. The CS was not aware of most overtime
                worked until the end of each pay period when they reviewed the
                inspectors’ T&A reports.

                FSIS did not require plants’ special requests for additional overtime
                services to be in writing or otherwise documented. The CS was
                supposed to be informed when special request overtime would be
                worked; however, we found that the CS was not always informed.
                The CS was supposed to be informed when inspectors were covering
                for each other but there was no national level procedure in place to
                ensure that the CS was informed of changes to work schedules. We
                found one instance where the CS was not aware that an inspector
                was on leave and a replacement was needed to cover the
                assignment.

                The CS did not control or approve who would work overtime when an
                inspector was unable or unwilling to work. Inspectors arranged for
                overtime coverage between themselves.




USDA/OIG-A/24099-4-At                                                          Page 7
                The amount of overtime worked by any individual inspector was
                determined by a number of factors. These included (1) the approved
                plant work schedule; (2) the inspectors’ tour of duty; (3) how often the
                assigned plant(s) operated on weekends and holidays;
                (4) staffing levels and vacant positions in the assigned circuit; and
                (5) how willing and/or able the inspector was to work overtime. As a
                result, there was considerable disparity in the amount of overtime
                worked by individual inspectors even though it was FSIS' policy to
                equalize the amount of overtime to the extent possible. Interviews
                with FSIS field-level officials indicated that the inspectors who worked
                the most overtime generally volunteered for the work and were
                known by other inspectors for always being available to cover a job if
                the assigned inspector did not want to work.

           During our field visits, we identified two instances where inspectors were
           not at their assigned plants during their assigned hours. In one case, the
           inspector had responsibility for inspections at two processing plants but
           we received statements from FSIS personnel and plant management that
           the inspector was frequently not at either plant. When we arrived at one of
           his plants in mid-afternoon, we could not locate the inspector at either
           plant, and he did not return our call from his other assigned location until
           late afternoon. In the other case, the inspector had responsibility for only
           one plant, yet plant management stated that the inspector would “come
           and go” during the day. We arrived early one afternoon without an
           inspector present, and this inspector did not show up until late afternoon
           the next day after we made a phone call inquiring about her whereabouts.
           These two cases of possible time and attendance abuse were declined for
           investigation by OIG-Investigations and referred to the agency for
           handling, which is standard procedure for time and attendance allegations
           and in accordance with departmental regulations.

           Based on the policies documented above and our discussion with FPC
           officials, we concluded that current procedures did not provide reasonable
           assurance that the inspectors reported and paid hours were accurate.

                                  Establish and implement controls, including
  RECOMMENDATION NO. 1            updating written policies and procedures, to
                                  require (1) written requests for overtime
                                  services from plants, (2) prior approval of
       inspectors’ overtime from the CS, and (3) supervisory approvals of T&A
       reports processed through the payroll system. In addition, FSIS should
       develop additional monitoring techniques of inspectors to ensure that
       hours claimed are worked.




USDA/OIG-A/24099-4-At                                                           Page 8
           FSIS Response

           In its September 30, 2002, response to the draft report, FSIS stated:

                 FSIS disagrees with items 1 and 2 of this recommendation.
                 Written requests for overtime from plants are not always
                 possible. Overtime is often unanticipated due to unforeseen
                 situations such as equipment failure, etc. This also applies
                 to prior approval of inspector overtime by the * * * CS.
                 Inspector overtime is often unscheduled; therefore, prior
                 approval by the CS in most situations may not be practical.

                 Additionally, the Secretary of Agriculture has affirmed three
                 exceptions that were previously made many years ago under
                 the authority of 7 U.S.C. 394. Those exceptions are: (a) the
                 provisions pertaining to the limitation on premium
                 compensation shall not be applicable; (b) employees who
                 work overtime between the hours of 6 p.m., and 6 a.m., shall
                 receive additional compensation of 10 percent of their basic
                 hourly rate for such night work in addition to their overtime
                 rate; and (c) the provisions pertaining to the ordering or
                 approving of overtime shall not be applicable. Item c.
                 specifically exempts the Agency from requiring written
                 requests for overtime or requiring prior approval.

                 However, to improve our controls, FSIS plans to review
                 existing T&A policies and procedures as well as develop and
                 issue new or revised policies and procedures as appropriate
                 that will reinforce T&A preparation, documentation, and
                 verification requirements. In addition, to allow more effective
                 supervisory oversight of T&A reports, FSIS will investigate
                 developing a system or process to strengthen the oversight
                 of inspector T&A reports. We will develop or revise policies
                 and procedures as appropriate by August 2003.

           OIG Position

           During our fieldwork, pre-exit meeting, and exit conference, FSIS officials
           did not mention the exceptions noted above and have not provided any
           documentation that support the exceptions. In addition, the response did
           not specify what controls will be implemented to ensure supervisory
           approvals of T&A reports nor specified what procedures/controls will be
           implemented requiring establishment owners to provide documentation of
           overtime within their establishment. To reach management decision, we
           need more detailed information on how these controls will be implemented



USDA/OIG-A/24099-4-At                                                          Page 9
            and evidence that the exceptions noted above are in effect and meet legal
            requirements.

                                        Determine whether administrative action is
  RECOMMENDATION NO. 2                  warranted for the inspectors not present at
                                        their assigned plants during duty hours.

            FSIS Response

            In its September 30, 2002, response to the draft report, FSIS stated:

                   FSIS has existing policies and procedures that deal with this
                   type of employee.        FSIS Directive 4735.3 Employee
                   Responsibilities and Conduct contains policies and
                   procedures for handling issues of misconduct. If employee
                   misconduct is identified (such as not being on duty during
                   assigned hours), the supervisor reports the situation to the
                   Labor and Employee Relations Division (LERD). LERD will
                   conduct an investigation and if the allegations of misconduct
                   are founded, disciplinary action will be taken as determined
                   appropriate.

            OIG Position

            We agree with the actions planned by FSIS. However, to reach
            management decision, we need an estimated completion date of the
            investigation and administrative action, if warranted.

                                       In 22 of 43 sample cases, inspectors did not
        FINDING NO. 2                  document information on T&A reports to
                                       properly support claimed hours of premium
    INSPECTORS WERE NOT                pay.     We attributed this condition to
   REQUIRED TO PROPERLY                inadequate review of the T&A reports by the
  COMPLETE T&A REPORTS TO              CS. Further, FSIS did not require FPC to
SUPPORT CLAIMED PREMIUM PAY provide quality control reviews to ensure that
                                       the T&A reports were properly documented.
                                       As a result, some inspectors did not fully
           justify or support their claims for premium pay and could have been
           overpaid.

            Procedures for preparing T&A reports provide that the employee’s tour of
            duty be shown on the T&A and that clock hours be reported for all
            premium pay claimed. The tour of duty must be identified so a reviewer
            and/or approving official can determine what hours of the day should be
            paid at the regular pay rates. The hours worked should be shown so that
            overtime work performed outside the employee’s normal tour of duty can


USDA/OIG-A/24099-4-At                                                         Page 10
           be verified. Also, hours worked are needed to identify work performed
           that qualifies for night differential pay (i.e., work performed between
           6:00 p.m. and 6:00 a.m.)

           We reviewed a sample of T&A reports for 43 inspectors in the Albany and
           Chicago districts to see if they were sufficiently documented to support the
           hours of overtime and night differential reported. The review was limited
           to checking the support for time codes 11, 21, 23, and 25 (code 11 = night
           differential, code 21 = overtime, code 23 = overtime travel under the Fair
           Labor Standards Act, and code 25 = overtime with night differential). Our
           review was also limited to the T&A reports for pay periods 1 and 20 of the
           FY 2000. The two pay periods were chosen for review because they
           covered one rotation period for those inspectors who rotated between
           assignments every 6 months. We found that 22 of 43 inspectors did not
           provide sufficient information on the T&A reports to support the premium
           pay hours reported as follows:

                                                                       Number of
                                Condition Noted                       Occurrences
            Tour of Duty Not Shown                                        11
            Tour of Duty Shown As “Indefinite”                             4
            Clock Hours Not Shown                                          2
            Overtime Not Supported                                         6
            Night Differential Not Supported                               1
            Overtime With Night Differential Not Supported                 2
            Premium Pay Not Claimed                                        4

           Three of the eight CS interviewed said that they reviewed the inspector’s
           T&A reports to verify that (1) the time codes used appeared appropriate,
           (2) the overtime claims appeared reasonable based on the operating
           hours of the plants on the inspector’s assignments, and (3) the leave time
           reported was appropriate. Several of the CS emphasized that they were
           not certifying as to the accuracy of the time reported on the T&A reports
           because they had no way of knowing the actual hours worked by the
           inspectors.

           We discussed the discrepancies noted in the table above with FPC
           personnel to determine why the T&A reports had been processed
           although they were not documented sufficiently to support the premium
           pay claimed. FPC personnel said that they did not review the T&A reports
           to see if they were properly filled out. They said they did not review the
           tours of duty shown on the T&A reports or compare the overtime/night
           differential claimed to the tour of duty or clock hours shown. They said
           that FPC was only concerned with the T&A entries that were coded into
           the NFC system and these were basically the totals per week under each
           time code.


USDA/OIG-A/24099-4-At                                                         Page 11
                                    Require inspectors to document their T&A
  RECOMMENDATION NO. 3              reports in a manner sufficient to support the
                                    hours of premium and overtime pay reported,
                                    and require the CS to review inspector’s T&A
        reports in sufficient detail to determine if the hours of premium pay
        claimed are supported by times documented on the T&A reports.

            FSIS Response

            In its September 30, 2002, response to the draft report, FSIS stated:

                  FSIS agrees with the intent of this recommendation. FSIS
                  requires supervisors to verify and sign T&A records
                  completed by their employees. FSIS will issue a Notice
                  reminding supervisors of this responsibility and also identify
                  the process for submitting corrections if needed based on
                  the review. We will issue the Notice by June 2003.

            OIG Position

            We accept the management decision for this recommendation.

                                   Perform random quality control spot checks of
  RECOMMENDATION NO. 4             the T&A reports processed to determine if
                                   they are sufficiently documented to support
                                   the premium pay claimed and inform district
        offices of discrepancies so that inspectors and/or CS can receive any
        needed training on how to properly prepare or review T&A reports.

            FSIS Response

            In its September 30, 2002, response to the draft report, FSIS stated:

                  FSIS agrees with the intent of the recommendation. FSIS
                  will develop and implement procedures that outline random
                  quality control checks of inspector T&A reports to ensure
                  that the T&A's are properly documented. Discrepancies will
                  be reported to the district manager for appropriate action.
                  The new procedures will be developed by August 2003.

            OIG Position

            We accept the management decision for this recommendation.




USDA/OIG-A/24099-4-At                                                         Page 12
                  CONTROLS AND PROCEDURES OVER BILLING AND
CHAPTER 2         COLLECTING FOR REIMBURSABLE OVERTIME
                  NEED IMPROVEMENT

           FSIS had not established adequate controls over billing for reimbursable
           overtime and was not taking aggressive or effective collection actions on
           overdue bills for reimbursable overtime services. We found that (1) FSIS
           continued to provide overtime and holiday inspection services for
           delinquent plants in violation of current regulations; (2) controls over
           reimbursable overtime claim forms were inadequate, and (3) controls over
           collections were not sufficient to reduce unpaid debt. FSIS personnel
           attributed this to (1) changes related to the field office reorganization that
           resulted in the elimination of collection efforts at the field level and
           (2) problems with their new accounting system. As a result, the amount of
           uncollected debt continues to grow at some plants and the Government
           was at risk of never collecting the amounts owed.

           Bills for overtime services were payable on receipt by the plants and
           become delinquent 30 days from the date of the bills. Regulations
           provided that overtime and holiday inspection services would not be
           provided for plants with delinquent accounts. However, FSIS did not
           suspend overtime and holiday inspection services for any plants with
           delinquent accounts. Based on our interviews and review of database
           records, it appeared that the regulation providing for suspending overtime
           services was rarely enforced and that plants continued to receive overtime
           services despite having delinquent accounts until they eventually paid
           current, ceased operations, or went into bankruptcy.

           FSIS also did not take aggressive collection actions on plants with
           delinquent accounts including those that were suspended or had been
           withdrawn from inspection service. This occurred because FSIS had not
           revised policies and procedures after its 1996 reorganization to ensure
           that collection actions were prompt and adequate. As a result, FSIS does
           not have an adequate collection system to aggressively pursue
           delinquencies.

           In addition, FSIS controls over reimbursable overtime were inadequate,
           because (1) the hours of reimbursable overtime shown on the
           5110-1 forms were not compared or verified to the hours of reimbursable
           overtime reported on the inspector’s T&A reports and (2) the CS did not
           routinely review the bills for reimbursable overtime because the
           5110-1 forms were sent directly to FPC for processing. In addition, the
           limited control over overtime that would be provided by having plant
           representatives sign the bills was weakened because plant management


USDA/OIG-A/24099-4-At                                                           Page 13
            was not always (1) available to verify the number of hours of overtime
            worked and (2) required to sign the bills. We found that 54 (43 percent) of
            the 126 Form 5110-1's reviewed that were issued in the 3 audited districts
            had no signatures by plant management on the forms. Thirty-eight of the
            unsigned forms were documented to show that no member of plant
            management was available to sign the form at the time it was left at the
            plant. As a result, there was limited assurance that plants were billed for
            the correct amount of overtime and in some cases, plants paid for services
            they did not receive and/or received free services that should have been
            reimbursed to FSIS.

                                       FSIS inspectors were performing overtime and
        FINDING NO. 3                  holiday inspection service for plants that were
                                       delinquent on bills for overtime services. This
    FSIS HAS NOT WITHHELD              occurred because FSIS officials were reluctant
     OVERTIME AND HOLIDAY              to stop providing overtime or holiday
   INSPECTION SERVICES FOR             inspections and, in most cases, were not
      DELINQUENT PLANTS                aware that plants were delinquent.             By
                                       continuing to provide overtime and holiday
                                       inspection services to delinquent plants, FSIS
           was creating a disincentive for the plants to timely pay bills and increasing
           the debt load on these plants.

            Title 9 CFR 307.6 states that “bills are payable on receipt and become
            delinquent 30 days from the date of the bill. Overtime or holiday
            inspection will not be performed for anyone having a delinquent account.

            In the 3 districts we visited, we found that 40 plants with delinquent
            accounts totaling $989,954.91, were still receiving overtime inspection
            services. Some of the plants' management officials expressed no intent to
            bring their accounts current because of financial problems. Six of the
            plants had either made no payments or had not made a payment on their
            accounts since 1999 (see exhibit B). District office officials stated that in
            order to withhold overtime inspection from delinquent plants, they would
            have to receive direction from headquarters. District office officials also
            said withholding overtime inspection would likely not happen because of
            the hardship it might cause plants that depend on overtime inspection.
            Inspectors at the plant level were unaware of the payment status of plants
            and only became aware of the plants' status if they were instructed to
            obtain checks from the plants at the time overtime inspection services
            were performed (i.e., cash on delivery (COD) plants). FSIS officials stated
            that there were only four plants nationwide paying on the COD basis.
            These plants still had outstanding delinquent balances totaling
            $50,715.66.




USDA/OIG-A/24099-4-At                                                           Page 14
                                   Establish and implement controls to ensure
  RECOMMENDATION NO. 5             that district office personnel are informed
                                   when plants become delinquent and to
                                   enforce regulations requiring the suspension
       of overtime and holiday services to plants that are delinquent.

            FSIS Response

            In its September 30, 2002, response to the draft report, FSIS stated:

                  FSIS will prepare procedures to inform district managers
                  when a plant is delinquent in paying their bills and that
                  suspension of overtime and holiday services be discontinued
                  until the unpaid debt is paid in full. The district will be
                  informed by letter after the plant has been given due
                  process. A Notice will be published in the Federal Register
                  by January 2003, informing industry of FSIS' intention to
                  enforce its authority to suspend reimbursable services when
                  a plant becomes delinquent in paying their debt.

            OIG Position

            We accept the management decision for this recommendation.

                                       We found that aggressive collection actions
       FINDING NO. 4                   were not taken on plants with delinquent
                                       accounts including those that were suspended
 FSIS HAS NOT AGGRESSIVELY             or had been withdrawn from inspection
PURSUED COLLECTION ACTIONS             service. This occurred because FSIS had not
  ON DELINQUENT ACCOUNTS               revised policies and procedures after its
                                       1996 reorganization and had not timely
                                       designed system changes to its new
          accounting system, Financial Foundation Information System, in 1999 to
          ensure that collection actions were prompt and adequate. As a result,
          FSIS did not have an adequate collection system to aggressively pursue
          delinquencies of $7 million as of April 16, 2001.

            Title 31 CFR, part 901 requires that Federal agencies take aggressive
            collection actions on all debts and to transfer to the Secretary (Treasury)
            any debt that has been delinquent 180 days or more so that the Secretary
            can take appropriate actions to collect the debt. The Debt Collection
            Improvement Act of 1996 requires Federal agencies to refer all legally
            enforceable and eligible non-tax debts that are more than 180 days
            delinquent to Treasury for collection through administrative offset and
            cross servicing.


USDA/OIG-A/24099-4-At                                                         Page 15
           Prior to the reorganization in 1996, NFC and regional offices handled
           collection efforts for overdue accounts. NFC generated dunning letters to
           delinquent plants for accounts unpaid after 30, 60, and 90 days
           (a maximum of 3 letters were sent depending on when or if the past due
           bills were paid). In addition, NFC provided regional offices with aged
           receivable reports showing the delinquent plants in each region.

           Regional offices, along with the CS, and/or plant inspectors, could then
           take collection action at the field level in addition to the dunning letters
           sent by NFC.

           After FSIS’ reorganization in 1996, NFC continued most of the debt
           collection activities until October 1999 when FSIS took control of debt
           collection. However, during this reorganization and transition period,
           collection activities became fragmented. District office officials said that
           the collection activities had “fallen between the cracks” during the
           reorganization. NFC had not redesigned the aged receivables report to
           conform to district boundaries and thus could not be used by the districts
           to monitor the payment status of plants under their jurisdiction. The
           dunning letter process continued until FSIS’ new accounting system was
           implemented in October 1999. At that time, dunning letters could no
           longer be generated due to computer system problems. FSIS officials
           said the dunning letter process was not fixed and working properly until
           March 2001. Further, none of the district offices visited had personnel
           assigned to monitor the payment status of the plants in the districts.
           District and field inspection personnel were generally not aware of cases
           where plants were delinquent in paying bills and most had never been
           requested to contact plant personnel concerning overdue bills.

           FPC officials said that in April 2001, they began calling plants with the
           largest delinquent amounts to request payment and these efforts had
           resulted in collection of about $3 million. FSIS officials also stated they
           were currently revising their debt collection procedure to include
           suspension of overtime services in appropriate cases and referral of debts
           for Treasury offset. Billing records for the audit period showed plants had
           been charged a total of about $163 million for overtime services at meat
           and poultry slaughter plants and food processing plants. Collections
           totaled about $142 million (see exhibit E).

           Since January 1, 2000, 24 plants in the 3 districts we visited had
           withdrawn or had requested voluntary suspension from inspection service.
           Fifteen of the 24 plants had not made any payments on their delinquent
           account balances for overtime or holiday services since prior to
           October 1999. The 24 plants had outstanding (unpaid) balances totaling
           $474,293 (see exhibit C). FSIS has not taken sufficient collection efforts


USDA/OIG-A/24099-4-At                                                         Page 16
             to recover the outstanding balances.         We also found that during
             FY 2000 and 2001, NFC had written off a total $123,816 in debts where
             they did not pursue sufficient collection actions. FSIS officials said that
             they did not have sufficient resources to do the required work that was
             necessary for debt collection.

             At the exit conference, an FSIS official questioned the age of the
             $7 million in delinquencies, since some of these amounts had been
             maintained by NFC prior to October 1999, and whether collection actions
             would yield substantial results. Our analysis disclosed that less than
             $2.8 million was billed prior to calendar year 2000. In addition, FSIS
             needs to act on old delinquencies to determine the potential to collect or
             write off amounts due.

                                         Develop and implement debt collection
  RECOMMENDATION NO. 6                   policies and procedures consistent with the
                                         Debt Collection Improvement Act of 1996 to
                                         improve collection of debts.

             FSIS Response

             In its September 30, 2002, response to the draft report, FSIS stated:

                    FSIS is developing debt collection policies and procedures
                    consistent with the Debt Collection Improvement Act of 1996.
                     FSIS is working with the Office of General Counsel and the
                    U.S. Treasury Department to establish appropriate
                    procedures and controls.             Full and functioning
                    implementation of the debt management process is planned
                    for January 1, 2003.

             OIG Position

             We accept the management decision for this recommendation.

                                      Controls over reimbursable overtime were
      FINDING NO. 5                   inadequate and not reliable because (1) the
                                      hours of reimbursable overtime shown on the
CONTROLS OVER REIMBURSABLE 5110-1 forms were not compared or verified
   OVERTIME CLAIMS WERE               with the hours of reimbursable overtime
       INADEQUATE                     reported on the inspector’s T&A reports, and
                                      (2) the CS did not routinely review the bills for
                                      reimbursable overtime because the 5110-1
         forms were sent directly to FPC for processing. In addition, the limited
         control over overtime that would be provided by having plant
         representatives sign the bills was weakened because plant management


USDA/OIG-A/24099-4-At                                                          Page 17
           was not always (1) available to verify the number of hours of overtime
           worked and (2) required to sign the bills. We also found that FSIS had
           excessive delays in billing plants for overtime services. As a result, there
           was limited assurance that plants were billed for the correct amount of
           overtime and in some cases, plants paid for services they did not receive
           and/or receive free services that should have been reimbursed to FSIS.

           Current procedures require inspectors to prepare written documentation
           showing the hours of reimbursable overtime worked at each plant. These
           forms (Form 5110-1, "Services Rendered") were submitted with the
           inspector’s T&A directly to the FPC for processing. Plant management
           was also provided with a copy of each Form 5110-1 applicable to their
           plant. The CS does not receive copies of the bills and normally do not
           review the 5110-1 forms, unless the plants question the bills
           and contact the CS. FPC currently does not have a process or control to
           compare the hours of reimbursable overtime shown on the 5110-1 forms
           with the reimbursable overtime reported on the related inspector’s T&A
           reports, although they have been working on an automated control to do
           such a comparison. FSIS officials said they were close to implementing
           the needed computer control to verify that the reimbursable overtime
           hours on the T&A reports agree with the 5110-1 forms.

           Plant Management Did Not Always Sign the 5110-1 Forms

           The 5110-1 forms provide for signatures by plant representatives to show
           acknowledgement that the overtime was worked. We reviewed 126 of the
           94,927 Form 5110-1's issued in the 3 districts during the audit period and
           found there were no signatures by plant management on 54 (43 percent)
           of the forms. Thirty-eight of the unsigned forms were documented to show
           that no member of plant management was available to sign the form at the
           time it was left at the plant. Discussion with inspectors showed it was
           common for forms to be submitted without signatures of plant
           representatives. One relief inspector (i.e., an inspector whose full-time job
           was to cover vacant assignments or plants where inspectors were on
           leave) reported that she never obtained the signatures of plant
           management on any forms she prepared. She said she had so much
           work and so many plants to cover that she always prepared her
           5110-1 forms at her home after work, and then dropped off the forms at
           the plants on her next visit. Another inspector reported that, due to a
           heavy workload, he was sometimes slow in providing plants with copies of
           his 5110-1 forms and the plant did not always have a copy of the Form
           5110-1 when the invoice covering the related form was received.




USDA/OIG-A/24099-4-At                                                          Page 18
           Discussion with plant management and inspectors showed that questions
           often came up concerning bills for overtime. In some cases, the plants
           had not received copies of all the 5110-1 forms listed on invoices for
           overtime. In other cases, plants were invoiced for overtime that was
           worked at another plant. We also found three plants that did not reconcile
           the 5110-1 forms to invoices when paying their bills.

           In addition, when inspectors were assigned to more than one plant, FSIS
           had a policy to minimize the amount billed for overtime to each plant as
           much as possible by spreading the charges between the plants on each
           inspector’s assignment. This policy of proportional billing provided that all
           plants that remain open and operating during an inspector’s overtime
           period will be billed proportionally for the overtime regardless of the
           location(s) where the inspector worked. Consequently, plant managers
           stated that they expected to be charged for overtime during periods when
           the inspectors were not present at the plant. This limits any control that
           might be provided by plant managers monitoring overtime because they
           have no way to determine how much overtime should be charged when
           some of the overtime was worked at other plants. Thus, the plant
           managers were not in a position to verify the actual number of hours of
           overtime worked.

           Billing Delays

           We analyzed billing data to determine if FSIS had promptly billed plants
           for overtime services that were performed. Review of the billing records
           showed that the elapsed time between providing overtime services and
           printing an invoice for services was normally 30 to 60 days. This
           appeared reasonable considering that the 5110-1 forms were submitted at
           the end of each 2-week pay period and invoices were only printed once a
           month.

           In order to determine if there were any         bills where there was an
           unreasonable delay in invoicing the plant,      we identified 272,000 bills
           nationwide where the overtime services          were performed between
           October 1, 1999, and September 30, 2000.        We then identified any bills
           where the bill print date was after December   1, 2000. We found 291 bills
           totaling about $55,000 where there was an      excessive delay in invoicing
           the plant. Details follow:

               Period of Delay            No. of Bills         Amount
           Over 1-Year                        50                $9,326.58
           6 Months To 1 Year                 54               $12,952.33
           3 To 6 Months                     187               $32,370.39
           Totals                            291               $54,649.30



USDA/OIG-A/24099-4-At                                                          Page 19
           Discussion with FPC personnel revealed there had been a data entry
           backlog for bills occurring around the October 1999 period caused by
           conversion to a new accounting system at NFC. They said some of the
           delayed printing of bills was due to the backlog and they were gradually
           eliminating the backlog as time permitted. However, as shown above,
           substantial delays occurred throughout the 2000 calendar year.

           At the exit conference, an FSIS National office official stated that delays
           occurred because inspectors did not timely submit 5110-1 forms.
           Regardless, FSIS needs to ensure that plants are timely billed for services
           received.

           Forms 5110-1 Did Not Always Agree With T&A Reports

           We reviewed the bills and related T&A reports issued by the 43 sample
           inspectors selected in the Albany and Chicago districts in order to
           determine if the amounts of reimbursable overtime billed to the plants
           agreed with the reimbursable overtime reported on the inspector’s T&A
           reports. There were differences between the T&A reports and bills for
           17 of the 43 inspectors that would indicate that the bills or T&A reports
           were inaccurate. The amounts billed were 115.75 hours less than the
           reimbursable overtime on the T&A reports for 12 of the inspectors. Five
           inspectors billed for 48.50 hours more overtime than was shown on the
           T&A reports.

           The first step we used was to compare the automated records of the
           billing data with the automated records of the T&A data. The billed
           amounts were converted from dollars to hours for comparison to the hours
           shown on the payroll records. In cases where differences were noted
           between the hours on the bills and the hours shown on the T&A reports,
           copies of the original bills were obtained from FPC. Paper copies of the
           bills were then compared to the FPC copies of the related T&A reports to
           verify that an exception actually existed. The review was done for pay
           periods 1 and 20 of calendar year 2000.

           FSIS officials informed us that FPC was working on a computerized
           control to identify cases where the overtime reported on the inspector’s
           T&A reports did not match the overtime shown on the 5110-1 forms
           prepared by the inspector. The condition noted above demonstrates there
           is a need for the proposed control.




USDA/OIG-A/24099-4-At                                                        Page 20
                                    Require FPC to complete development of an
  RECOMMENDATION NO. 7              automated control to compare the bills for
                                    overtime issued to plants with the overtime
                                    reported on the inspector’s T&A reports to
        ensure that all reimbursable overtime was properly reported and billed,
        and develop procedures to resolve any discrepancies between the billed
        amounts of reimbursable overtime and the reimbursable overtime reported
        on the related inspectors T&A reports identified by the automated control.

            FSIS Response

            In its September 30, 2002, response to the draft report, FSIS stated:

                  The * * * FPC is developing a T&A versus Billing Document
                  (FSIS 5110-1) Variance Report. In March 2002, the FPC
                  generated a Variance Report for Pay Period 1, 2002, using
                  T&A data collected from * * * NFC's Payroll Warehouse
                  utilizing FOCUS software and the FFIS * * * Accounts
                  Receivable Tables utilizing BRIO software. The Variance
                  Report is generated from ACCESS and reports the T&A and
                  Billing Documents (5110-1) that do not match. From this
                  point the process becomes manual in order to review the line
                  items and pull paper documents for analysis and corrections.
                   Corrected documentation is requested when required.

                  * * * FSIS has requested a new electronic filing system that
                  will allow the FPC to manage and manipulate the paper T&A
                  and 5110-1's electronically. Documentation will be retrieved
                  electronically rather than by hand and copied.           The
                  implementation of the new system will be completed by
                  December 2003.

            OIG Position

            We accept the management decision for this recommendation.

                                        Establish and implement controls to ensure
  RECOMMENDATION NO. 8                  that plants are timely billed.




USDA/OIG-A/24099-4-At                                                         Page 21
           FSIS Response

           In its September 30, 2002, response to the draft report, FSIS stated:

                 Since FY 1998, the FPC has been receiving all the FSIS
                 5110-1's, "Services Rendered," documents and processing
                 them for billing.       This change in procedures was
                 implemented to ensure timely processing and billing through
                 a controlled and closely monitored process. The initial
                 process was through NFC's PCBLCO software for billing,
                 which was converted to the FFIS Accounts Receivable
                 system.        Except for the couple of months during
                 implementation (October – December 1999), the FPC has
                 been able to process all 5110-1's received within two weeks
                 of receipt. Circumstances in the field may cause delays in
                 the 5110-1 submissions, however, the FPC processes the
                 5110-1 within two weeks of receipt to be included in the next
                 billing cycle.

                 The T&A and Billing Document Variance Report, identified in
                 Recommendation No. 7, provides the FPC with information
                 to determine if 5110-1 documents are missing. Districts are
                 notified to submit missing 5110-1's. The electronic filing
                 system will be implemented December 2003.

           OIG Position

           We accept the management decision for this recommendation.

                                       Establish and implement controls to ensure
  RECOMMENDATION NO. 9                 that    plant  management      signs   the
                                       5110-1 forms indicating that services were
                                       performed.

           FSIS Response

           In its September 30, 2002, response to the draft report, FSIS stated:

                 FSIS agrees with the intent of this recommendation. FSIS
                 requires inspectors to obtain appropriate signatures on the
                 5110-1 (block 10). The 5110-1 outlines the number of
                 overtime hour[s] worked by an inspector and is certified by
                 the plant official's signature. We will assess our current
                 procedures and make any necessary adjustments by
                 June 2003.



USDA/OIG-A/24099-4-At                                                        Page 22
            OIG Position

            We agree that inspectors are to obtain appropriate signatures on the
            5110-1 form (block 10). We also agree that the form outlines the number
            of overtime hours worked by an inspector and is certified by the plant
            official's signature. However, to reach management decision, we need to
            know what enforcement actions will be implemented to ensure that all
            forms have been signed by plant management.

                                    Discontinue the policy of proportional billing. If
 RECOMMENDATION NO. 10              not, revise Form 5110-1 to show overtime
                                    hours charged to the plant that were worked at
                                    off-site locations, so that plant management
       can verify that charges are correct.

            FSIS Response

            In its September 30, 2002, response to the draft report, FSIS stated:

                   FSIS disagree[s] with this recommendation. FSIS will
                   re-examine the policy of proportional billing and will develop
                   a proposal to ensure that charges are accurate. The
                   proposal will be developed by January 2003.

            OIG Position

            We do not accept management decision based on the alternative
            corrective action to be implemented for this recommendation because the
            planned corrective action does not specifically address whether plant
            management can verify whether charges are accurate.




USDA/OIG-A/24099-4-At                                                          Page 23
EXHIBIT A – OVERTIME HOURS BY DISTRICT – FY 2000


                          Jackson, MS

                       Philadelphia, PA

                          Beltsville, MD

                           Raleigh, NC

                        Springdale, AR

                            Atlanta, GA

                            Salem, OR
    D istrict Office




                       Pickerington, OH

                            Albany, NY

                       Minneapolis, MN

                           Madison, WI

                           Boulder, CO

                         Lawrence, KS

                        Des Moines, IA

                          Alameda, CA

                             Dallas, TX

                            Chicago, IL

                                           0   50000   100000   150000   200000   250000   300000
                                                       Total Hours of Overtime




USDA/OIG-A/24099-4-At                                                                         Page 24
EXHIBIT B – PLANTS WITH DELINQUENT ACCOUNTS RECEIVING
OVERTIME INSPECTION SERVICES IN THE DISTRICTS VISITED
                                                                   Page 1of 2

                                             Last           Outstanding
                                           Payment            Balance
            Plant           Status    Date (Month, Year)   As of 01/31/02
     Atlanta, GA District
               1            Active   04/00                     $213,108.41
                                     1/
               2            Active     Unknown                  $44,099.93
               3            Active   COD                        $29,054.10
               4            Active   02/00                      $47,897.18
               5            Active   1/ Unknown                 $23,251.85
               6            Active   02/00                      $26,042.97
               7            Active   After 10/01                 $8,630.23
               8            Active   After 10/01                 $2,915.38
               9            Active   04/00                      $14,069.10
              10            Active   After 10/01                 $6,224.29
              11            Active   After 10/01                 $5,251.75
              12            Active   After 10/01                 $6,268.33
              13            Active   After 10/01                 $2,874.23
              14            Active   1/ Unknown                  $8,104.97
     Chicago, IL District
              15            Active   After 10/01                $56,846.37
              16            Active   10/00                         $498.41
              17            Active   1/ Unknown                 $24,425.25
              18            Active   After 10/01                $15,443.77
              19            Active   04/01                       $2,301.25
     Albany, NY District
              20            Active   After 10/01                $67,816.17
              21            Active   After 10/01                $78,002.86
              22            Active   After 10/01                $42,361.24
              23            Active   After 10/01                $27,008.35
              24            Active   After 10/01                $26,978.28
              25            Active   After 10/01                $18,004.89
              26            Active   After 10/01                $28,853.97
              27            Active   After 10/01                $23,878.97
              28            Active   12/99                      $17,065.21




USDA/OIG-A/24099-4-At                                                 Page 25
                                                                        Page 2 of 2

              29               Active    09/01                       $1,645.86
              30               Active    08/01                      $43,842.87
              31               Active    02/01                       $3,731.25
              32               Active    1/ Unknown                 $12,547.78
              33               Active    After 10/01                 $4,799.28
              34               Active    After 10/01                   $471.50
              35               Active    After 10/01                $16,292.75
              36               Active    After 10/01                $12,936.45
              37               Active    After 10/01                 $5,063.39
              38               Active    After 10/01                 $7,125.42
              39               Active    After 10/01                 $1,556.23
              40               Active    After 10/01                $12,664.42
                                         TOTAL                     $989,954.91
    1/
       The date of any payments is unknown because they would have occurred
    prior to the October 1999 conversion to the FFIS accounting system.




USDA/OIG-A/24099-4-At                                                      Page 26
EXHIBIT C – WITHDRAWN OR SUSPENDED PLANTS WITH UNPAID
ACCOUNTS FOR OVERTIME SERVICES

                                                                 Outstanding
                                                        Last      Balance
                                                      Payment       As of
           Plant                 Status                 Date      01/31/02
    Atlanta, GA District
             1           Suspended               No Payments       $75,392.58
                                                 1/
             2           Withdrawn                  Unknown       $104,701.57
                                                 1/
             3           Withdrawn                  Unknown        $24,479.09
                                                 1/
             4           Withdrawn                  Unknown        $23,448.50
                                                 1/
             5           Suspended & Bankrupt       Unknown        $24,382.99
                                                 1/
             6           Withdrawn                  Unknown        $11,775.18
                                                 1/
             7           Withdrawn                  Unknown        $15,773.92
                                                 1/
             8           Withdrawn & Bankrupt       Unknown         $5,609.14
             9           Suspended               After 10/01         $913.85
             10          Suspended               After 10/01        $1,492.83
             11          Suspended               After 10/01        $2,461.09
             12          Suspended               After 10/01        $2,351.84
    Chicago, IL District
                                                 1/
             13          Withdrawn                    Unknown        $7,581.73
    Albany, NY District
             14          Withdrawn                After 10/01        $36,303.11
                                                 1/
             15          Withdrawn                   Unknown         $31,152.72
                                                  1/
             16          Withdrawn                   Unknown         $21,883.36
             17          Withdrawn                After 10/01        $10,216.06
                                                  1/
             18          Withdrawn                   Unknown         $18,633.76
                                                  1/
             19          Withdrawn                   Unknown         $15,010.54
             20          Withdrawn                After 10/01         $5,888.87
                                                  1/
             21          Withdrawn                   Unknown         $12,739.44
                                                  1/
             22          Withdrawn                   Unknown          $8,007.70
             23          Withdrawn                After 10/01         $7,727.77
                                                  1/
             24          Withdrawn                   Unknown          $6,364.94
                                                  TOTAL            $474,292.58
    1/
       The date of any payments is unknown because they would have occurred
    prior to the October 1999 conversion to the FFIS accounting system.




USDA/OIG-A/24099-4-At                                                       Page 27
EXHIBIT D – FSIS OVERTIME HOURS - FY 2000

        OVERTIME FOR DISTRICT OFFICE FSIS EMPLOYEES

                        Number of    Range of Overtime
                        Employees     Hours Reported
                            36        1,501.00 – 1,976.00
                           219        1,000.00 – 1,499.75
                          1,390           500.00 – 998.75
                          7,497             0.00 – 499.75

OVERTIME REPORTED BY INSPECTORS VISITED DURING THE AUDIT
                                                  FY 2000
                    Inspector            Plants   Overtime
                   Contacted Title Assigned        (Hours)
                                  1/
                         A           IIC    5       772.00
                         B         IIC      1       92.75
                         C         IIC      4     1,354.25
                         D         IIC      4       839.75
                         E         IIC     11     1,084.25
                         F         IIC      1       221.00
                         G         IIC      5       908.50
                         H         IIC      3     1,117.50
                          I        IIC      3       128.50
                         J         IIC      1       208.00
                         K         IIC      1       426.50
                         L         IIC      1       255.00
                         M         IIC      5     1,504.00
                         N         IIC      5     1,285.50
                         O         IIC      3       244.75
                         P         IIC      4       494.00
                         Q       Relief     2       790.75
                         R       Relief     6       755.75
                         S         IIC      5     1,197.50
                         T         IIC      5       728.75
                         U         IIC      4     1,794.25
                   1/
                      Inspector-in-Charge




USDA/OIG-A/24099-4-At                                        Page 28
EXHIBIT E – OVERTIME BILLED BY DISTRICT – 10/99 THROUGH 03/01




USDA/OIG-A/24099-4-At                                  Page 29
EXHIBIT F – PLANT LOCATIONS VISITED

      PLANT/TYPE                     STATUS                   LOCATION
A - Processing               Active - Delinquent      Newark, New Jersey
B - Slaughter                Active - Delinquent      Paterson, New Jersey
C - Processing               Active - Delinquent      Passaic, New Jersey
D - Processing               Active - COD             Newark, New Jersey
E - Processing               Active - Current         New Brunswick, New Jersey
F - Processing               Active - Current         Maspeth, New York
G - Processing               Active - Delinquent      Jamaica, New York
H - Processing               Active - Delinquent      Turnersville, New Jersey
 I - Processing              Active - Current         Camden, New Jersey
 J - Processing              Active - Current         Williamstown, New Jersey
K - Processing               Active - Current         Pennsauken, New Jersey
L - Slaughter & Processing   Active - Current         Stillmore, Georgia
M - Slaughter & Processing   Active - Current         Perry, Georgia
N - Processing               Active - Current         Hialeah, Florida
O - Processing               Active - COD             Miami, Florida
P - Processing               Active - Delinquent      Hialeah, Florida
Q - Processing               Active - Delinquent      Hialeah, Florida
R - Processing               Active - Delinquent      Hialeah, Florida
S - Processing               Active - Current         Miami, Florida
T - Processing               Active - Delinquent      Chicago, Illinois
U - Processing               Active - Current         Broadview, Illinois
V - Processing               Active - Current         Elk Grove Village, Illinois
W - Processing               Active - Current         Bolingbrook, Illinois
X - Slaughter & Processing   Withdrawn - Delinquent   Alma, Georgia
Y - Slaughter & Processing   Withdrawn - Delinquent   Alma, Georgia




USDA/OIG-A/24099-4-At                                                         Page 30
EXHIBIT G – FSIS RESPONSE TO THE DRAFT REPORT
                                                  1 of 6




USDA/OIG-A/24099-4-At                           Page 31
                          2 of 6




USDA/OIG-A/24099-4-At   Page 32
                          3 of 6




USDA/OIG-A/24099-4-At   Page 33
                          4 of 6




USDA/OIG-A/24099-4-At   Page 34
                          5 of 6




USDA/OIG-A/24099-4-At   Page 35
                          6 of 6




USDA/OIG-A/24099-4-At   Page 36
